e>

il*9

No.
3fn tlje

Supreme Cottrt of tlie QEntteb States?
Reginald L. Sydnor,
Petitioner,
v.
Mark A. Robbins, Vice Chairman, et al.
Respondents.

n <31
'

On Petition for Writ of Mandamus to
the United States Court of Appeals
for the Third Circuit

! i

-

;

- - .y

M

ITJ

v.

PETITION FOR WRIT OF MANDAMUS

Reginald Sydnor
731 Buck Lane
Haverford, PA 19041
(610) 649-0327
regsyn@aol.com
Pro Se Petitioner

FILED
MAR 0 3 2021
OFFICE OF THE CLERK
SUPREME COURT ii R

i
QUESTION(S) PRESENTED
In June, 2018, petitioner sued the United States
Merit Systems Board (board), board members in district
court for the Eastern District of Pennsylvania, pursuant
to Mandamus Act, Administrative Procedures Act (APA),
and the United States Constitution. Petitioner requested
the district court to mandate the board members to
vacate two unconstitutional, null and void board final
decisions rendered by a non-constitutionally appointed
board employee. These same unconstitutional, null and
void final board decisions adjudicated petitioner
unsuitable, removed and debarred petitioner from his
constitutionally appointed and employed federal
administrative law judge (ALJ) position.
Despite
petitioners’ timely motion, interlocutory appeal and
petition for review to the board to vacate the
unconstitutional board adjudication and decisions and to
afford petitioner an appropriate due process ALJ board
appeal before a constitutionally appointed board AU, the
board to this date has repeatedly refused petitioner his
ALJ constitutional and statutory due process relief.
At all times, the board members were put on notice
and are aware that the board is continuously violating
petitioner’s statutory and constitutional due process
rights, pursuant to 5 U.S.C 7521, 5 U.S.C. 551 et seq
(Administrative Procedures Act) (APA)), and 5 U.S.C.
7515 E, and Article II, 2, cl. 2 of the United States
Constitution. All leading to what this Court has deemed a
board constitutional appointment violation. Petitioner’s
repeated and timely requests to the board and the
appeals courts for an ALJ due process board hearing
before a constitutionally appointed board ALJ entitles
petitioner to that relief, pursuant to this Court’s ruling in
Lucia v. Security Exchange Commission, 585 U.S.__

II

(2018), 138 S. Ct. 2044. Ignoring this Court’s controlling
law and the pertinent facts regarding petitioner’s right to
timely request the district court to mandate his
appropriate due process relief, on motion from the board
members, the district court dismissed petitioner’s request
for relief and a Third Circuit Court of Appeals panel
affirmed the dismissal. Petitioner’s request for an en
banc hearing on his mandamus request for his
appropriate AU due process relief was denied.
Petitioner returns to this Court and again ask this
Court to intervene by requesting the Court to enforce its
own mandate set forth in its Lucia decision, id and afford
petitioner that same fundamental and appropriate
constitutional due process relief the board has deprived
petitioner for over two decades. The questions presented
to this Court are as follows:
1.
Does petitioner’s repeated timely requests for his
appropriate ALJ due process hearing before a
constitutionally appointed board AU, although all were
ignored by the board and dismissed throughout the
appeal courts, entitle petitioner to a timely request for
that same appropriate due process relief, pursuant to this
Court’s ruling in Lucia.
2.
Does petitioner’s prior unsuccessful appeal of an
unconstitutional, null and void board final decision now
bar petitioner’s entitlement to his appropriate
constitutional due process relief, denied by that same
unconstitutional board decision.
3.
Can the district court rely upon the ruling of an
unconstitutional, null and void board decision to deny
petitioner his appropriate constitutional due process
relief, denied by that same board decision.
4.
Does the lower courts’ dismissal of petitioner’s
mandamus request for his appropriate constitutional due
process relief, denied by the board’s constitutional

1

in
appointment violation, in fact, sanctions the board’s
constitutional appointment violation against petitioner.

i

IV

PARTIES TO THE PROCEEDING
Petitioner (mandamus plaintiff in the district
court), is a life-long constitutionally appointed and
employed federal Administrative Law Judge (ALJ),
determined unsuitable, removed and debarred from his
federal employment by an unconstitutional, null and void
Merit Systems Protection Board (board) final decision. A
board decision which per se violated the Appointment
Clause of Article II of the United States Constitution and
the Congressional statutory due process procedures set
forth in 5 U.S.C. 7521,5 U.S.C. 551, et seq (the APA), and
5 U.S.C. 7512 E.
Respondents in this Court are the United States
District Court for the Eastern District of Pennsylvania
and the Third Circuit Court of Appeals. Both lower
courts are charged with the duties and responsibilities to
uphold and enforce the federal statutory laws and the
United States Constitution. Respondents are also the
Board Members of the United States Merit Systems
Protection Board, charged with the direct duty and
responsibility to ensure the board’s compliance with the
Appointment Clause of Article II of the United States
Constitution and to enforce the statutory due process
provisions of 5 U.S.C. 7521, the APA, and 5 U.S.C. 7512 E
(defendants in the district court and real parties of
interest in the court of appeals).

STATEMENT OF BELATED CASES
None

V

TABLE OF CONTENTS
Page
Question(s) Presented

i

Parties to the Proceeding,

IV

Statement of Related Cases

VI

Table of Authorities

VIII

Opinions Below

1

Jurisdiction,

.3

Relevant Provisions Involved

.4

Statement

.4

Reasons for Granting the Petition
A. Petitioner has a clear and indisputable legal
and factual right to appropriate
constitutional due process relief, which was
misguidedly ignored and routinely dismissed
by the lower courts.........................................
1. The lower courts’ dismissal of
petitioner’s mandamus request for relief, as
untimely, is not in accordance with the
controlling law set forth by this Court’s
Lucia ruling for timely relief and as
established by the case facts...........................
2. The lower courts errored to rule
petitioner’s unsuccessful court appeals of a
board decision, ruled unconstitutional, null

10

12

15

m
and void by this Court, can still be used to
deny petitioner’s appropriate constitutional
due process relief, denied by that same board
decision ................... ....................................... .
3. The district court errored to rely upon
an unconstitutional, null and void board
decision ruling to disqualify and dismiss
petitioner’s mandamus request for his
appropriate constitutional due process relief,
mandated by this Court ..................................
B. Petitioner has no other adequate means to
attain his appropriate constitutional due
process relief, improperly denied by the
board and misguidedly dismissed by the
lower courts, based upon that improper
denial.................................................................

.23

C. Mandamus relief is appropriate under the
circumstances of this contradicted case........

25

Conclusion

28

.20

.21

Appendix
Appendix A- Third Circuit Opinion/Judgment,
AfPd Dist. Court Orders Filed Sept. 2,2020,
Mandated Dec. 14,2020................................... .... la-6a
Appendix B- Dist. Court Order, Dec. 3,2019.... .. 7a-10a
Appendix C- Dist. Court Order, Jun. 3,2019.... lla-12a
Appendix D- Petition En Banc Denial, Dec. 4,
2020
13a-14a
Appendix E- McDougall v. SSA, 2010 M.S.P.B.
163, Aug. 13,2020............................................ 15a-19a
Appendix F- Lucia v. SEC, 138 S. Ct. 2044,
Jun. 21,2018............................... .................... 20a-35a

vii
Appendix G- M.S.P.B. Requested Relief Denial
Correspondences Apr. 10,2015, Apr. 20,2015,
May 28,2015...................................... ............... 36a-45a
Appendix H- Denied Petition for Writ of
Certiorari 531U. S. 1014 (2000) ...................... 46a-70a

-i

mu
TABLE OF AUTHORITIES
Page
Cases
Bankers Life & Casualty Co. v. Holland, 346
U.S. 376(1953)................... ..............................
28
Cheney v. United States District Mon M.S.P.B.
LEXIS 115,1 M.S.P.B 50 (M.S.P.B., June 12,
1979)................................................................. .passim
Kerr v United States District Court, N. Dist.
of Cal., 426 U.S. 394 (1976)..............................
26
Lucia v. Security Exchange Commission, 585
U.S.__ (2018), 138 S. Ct. 2044,201 L.Ed.2d
464 (App. At _)................................................
2
McDougall v. Social Security Administration,
2010 M.S.P.B. 163 (August 13,2010) (App.,
At__)........................................................ ..........
1
Montgomery v. Louisiana,__U.S._, 136 S. Ct.
718,119 L.Ed. 599 (2016).................................
22
Social Security Administration v. Dantoni, 77
M.S.P.R. 516, afPd 173 F. 3d. 435 (Fed. Cir.
1998).................................................................
13
Social Security Administration v. Goodman, 28
M.S.P.R. 120 (1985)..........................................
12
Social Security Administration v. Long, 113
M.S.P.R. 190 (2010)..........................................
12
Sydnor v. LaChance, No. JFM 99-228, sup op,
at 2, (D. Md. Oct 26,1999); afPd, 210 F. 3d.
362 (4th Cir. 2000 (Table)); Cert. Denied, 531
U.S. 1014 (2000)................................................. 7,16
Sydnor v. OPM, No. 06-CV-0014,2007 WL
2029300, at * 4-6 (E.D. Pa. July 11,2007),
afPd. 356 F. App’x 175 (3d. Cir. 2009)...............
25
Sydnor v. M.S.P.B., 466 F. App’x 907 (Fed.
Cir. 2012)...........................................................
25

IX

Tunik v. Merit Systems Protection Board, 407
F. 3d. 1326 (Fed. Cir. 2005)...........................
Will v. United States, 389 U.S. 90 (1967).........

12
.28

Constitution and statutes:
U.S. Constitution:
Article II, 2, cl. 2................................................
13
Appointment Clause..........................................
.27
Amendment V....................................
.9,26,27
Due Process Clause ................................. .........
11
Equal Protection Clause ...................................
.9
Administrative Procedures Act, 5 U.S.C.551, et
seq.
1,12

5 U.S.C. 556 (b)
5 U.S.C. 557...
5 U.S.C 7511-7514
5 U.S.C. 7512 E....
5 U.S.C. 7521 ......
5 U.S.C. 7703 ......
28 U.S.C. 1254(1)
28 U.S.C. 1651....
28 U.S.C. 1651 (a)

13
13
12
12
.'passim
.... 6,16
.3
.3,11
.3

Board regulations and final decisions:
5 C.F.R. 1201.118........................................
5C.F.R. 1201.137(a)...................................
5 C.F.R. 1201.140 (a) (1), 140 (a) (2) ...........
5 C.F.R. 1201.142.......................................
PH- 0731-98-0188-1-1; PH-0752-98-0213-1-1

14
,6
13
13
.passim

1
Petitioner, Reginald L. Sydnor, respectfully
petitions for a writ of mandamus to the United States
District Court for the Eastern District of Pennsylvania.
In the alternative, the petitioner respectfully request
that the Court treat this petition as a petition for a writ
of certiorari to review the judgment of the United
States Court of Appeals for the Third Circuit, or as a
common law writ of certiorari to review the district
court’s decision to dismiss petitioner’s mandamus
request for his appropriate constitutional due process
relief from the United States Merit Systems Protection
Board.
OPINIONS BELOW
On June 22, 2018, petitioner filed a district court
mandamus and APA action against the board members
of the Merit Systems Protection Board (board) seeking
his denied appropriate and entitled Administrative
Law Judge (ALJ) constitutional due process relief. The
action was based upon the board members’ continual
violation of petitioner’s due process rights pursuant to 5
U.S.C. 7521, 5 U.S.C. 551, et seq (APA), 5 U.S.C. 7515
E, and revisited by the board members’ refusal to
honor its own mandate for petitioner’s appropriate AT J
due process relief, as set forth by the board members
themselves in
McDougall v. Social Security
Administration, 2010 M.S.P.B. 163 (August 13, 2010),
(App. E, 15a-16a, 18a-19a, infra). Without answering
petitioner’s action, the board members filed a motion to
dismiss petitioner’s mandamus request for his
appropriate due process relief based upon a six year
federal statute of limitations and petitioner being
barred from his appropriate constitutional due process
relief because petitioner had already unsuccessfully

«

2

appealed its now unconstitutional, null and void board
decisions, which-denied petitioner his entitled ALJ
appropriate constitutional due process relief being
requested. On June 26). 2019, the district court issued
an Order granting the board members’ motion and
dismissed petitioner’s request for his appropriate
constitutional' due process relief, quoting the board
members’ motion rationale in a footnote. Petitioner
timely motioned the district court for reconsideration
and to grant petitioner’s request for his appropriate
constitutional due process relief, based upon this
Court’s June 22, 2018 ruling in Lucia v Security
Exchange Commission, 585 U.S. • (2018), 138 S. Ct.
2044, 201 L. Ed. 2d 464 (App. F, 31a-32a, infra), which
established the controlling law for petitioner’s timely
request for his appropriate constitutional due process
relief. Likewise, pursuant to this Court’s Lucia ruling,
since the board’s violation of the federal AU due
process statutes amounted to a board constitutional
appointment violation, the appealed final board
decisions, which denied petitioner his constitutional due
process relief, now become unconstitutional, null’ and
void. A position the board members had already taken
in its McDougall decision. App. E, 18a-19a, infra.
On December 3, 2019, the district court issued
another
Order,
which
denied
petitioner’s
reconsideration and again dismissed petitioner’s
request for appropriate constitutional due process
relief. Again, the district court attached a footnote
which disregarded this Court’s ruling on the board’s
unconstitutional appointment violation. Instead, the
district court cited the ruling of the unconstitutional,
null and void board decision as a reason to disqualify
petitioner from any timely request for appropriate

3
constitutional due process relief, set forth by this
Court’s controlling ruling in Dacia.
Petitioner timely appealed the district court’s
dismissal of petitioner’s mandamus request for relief to
the Third Circuit Court of Appeals. On September 24,
2020, a third circuit panel member issued a non­
precedent, unpublished judgment and opinion affirming
the district court’s orders. Petitioner timely petitioned
for an en banc hearing on the matter and requested the
appellate court to issue the appropriate constitutional
relief mandated by this Court. Petitioner’s en banc
petition was denied on December 4, 2020 and the
judgment and opinion was entered on December 14,
2020.
JURISDICTION
The common law writ of mandamus against a
lower court is codified at 28 U.S.C. 1651 (a). “The
Supreme Court and all courts established by Act of
Congress may issue all writs necessary or appropriate
in aid of their respective jurisdictions and agreeable to
the principles of law”. As such, the jurisdiction of this
Court is invoked under 28 U.S.C. 1651. In the
alternative, the jurisdiction of this Court is invoked
under 28 U.S.C. 1254 (1). The judgment of the court of
appeals was entered on December 14,2020.

il

4
RELEVANT PROVISIONS INVOLVED
(see appendix)
STATEMENT
Petitioner serves a lifelong appointment and was
employed by the Social Security Administration (SSA)
as an Administrative Law Judge (ALJ) in the SSA’s
Voorhees, New Jersey hearing office in early 1997.
(Federal ALJ ID No. 2117). Prior to petitioner’s
appointment, petitioner had 19 years of productive and
unblemished federal service in both military and
civilian federal service. Petitioner’s background had
been thoroughly screened, verified, approved and rated
by the Office of Personnel Management’s Office of
Administrative Law Judge (OPM OALJ) as suitable
and highly qualified for federal ALJ appointment. The
OPM OALJ investigated petitioner’s personal,
educational, military and professional background. An
inquiry was made into petitioner’s criminal record and
state bar disciplinary conduct with no reported
incidents. As has always been the case to this date.
Notwithstanding, in the fall of 1997, based upon
an unverified false allegation that petitioner was
involved in criminal misconduct in prior federal service,
an overly zealous OPM Suitability Branch (OPM SB)
investigator coached the SSA to unofficially and
indefinitely remove petitioner from his constitutionally
appointed and employed SSA ALJ position. The OPM
SB investigator subsequently investigated the matter
and concluded no criminal misconduct. However, in an
apparent effort to cover for petitioner’s already
unjustified ALJ removal, the investigator alleged
petitioner falsified his ALJ application. The same ALJ

5
application the OPM OALJ had already thoroughly
screened, verified, approved and rated. The OPM SB
investigator determined petitioner was unsuitable and
therefore must be removed and debarred from federal
service. An unchallenged and out of order OPM SB
conclusion which denied petitioner a due process
opportunity to an OPM suitability hearing and decision
before an OPM Suitability Panel. Petitioner appealed
the out of order and anomalous actions by the OPM SB
and the SSA to the Merit Systems Protection Board
(board) as an illegal ALJ discipline violating 5 U.S.C.
7521 and the APA and discriminatory, since this type
procedural action had never been taken against any
other ALJ. Compare the established ALJ procedure
afforded by the SSA, OPM (former Civil Service
Commission) and the board in In re Spielman, 1
M.S.P.R. 53, 1979 M.S.P.B. Lexis 115, 1 M.S.P.B. 50
(M.S.P.B. June 12,1979).
Not in conformity with the established board
assignment of an AU board appeal to a constitutionally
appointed board ALJ, for appropriate ALJ board
appeal review and adjudication, petitioner’s ALJ board
appeal was unexplainably rerouted to a board
administrative judge (BAJ). A BAJ being nothing
more than a title given to a non-constitutionally
appointed board attorney hired by in house staff. All in
violation of 5 U.S.C 7521, corresponding board
regulations, the APA and 5 U.S.C. 7515 E and a board
action ultimately defined by this Court as an agency
constitutional appointment violation,
Petitioner
immediately motioned and petitioned the board
members to reassign petitioner’s AU board appeal to a
constitutionally appointed board AU for appropriate
board review and adjudication. Both petitioner’s
motion and petition were administratively blocked by

6

the board clerk and the BAJ. App. H, 66a-67a, 68a-70a,
infra.
The non-appointed BAJ proceeded to conduct an
ad hoc non- adversary hearing, not in conformity with
any established AU due process procedures set forth
by the APA, 5 U.S.C. 7521, board regulations 5 C.F.R.
1201.137, .140(a), and .142 and traditional board AU
caselaw. No deciding official from the OPM SB or the
SSA appeared to give any sworn testimony or to be
cross examined on the record, as to any merit to
support an OPM SB unsuitability conclusion or the
resulting removal and debarment of petitioner. The
proceeding barred petitioner from any opportunity to
challenge or defend the OPM SB unsuitability
conclusion or the justification for any AU removal or
debarment disciplinary action. The BAJ immediately
dismissed petitioner’s ALJ board appeal of the SSA’s
unofficial indefinite suspension/removal as lacking
board jurisdiction (PH-0752-98-0213-1-1), dismissed
petitioner’s discrimination claim and proceeded to
ordered petitioner unsuitable, debarred from federal
service and for the SSA to officially remove petitioner
from his ALJ position (PH-0731-98-0188-1-1).
Petitioner again timely petitioned the board members
to review and to vacate the illegal BAJ adjudication and
decisions and to reassign petitioner’s AU board
appeals to a constitutionally appointed board ALJ for
appropriate board resolution. The board members
refused review. App. H, 62a-63a, infra.
Petitioner timely appealed the BAJ’s final board
decisions as not in accordance with the board’s
administrative and statutory due process procedures
for board AU appeals and discriminatory in a
subsequent district court action, pursuant to 5 U.S.C.
7703 (b) (2); App. H, 64a, infra. That action, and

7
appellate review were unsuccessful and dismissed by
those lower courts without a trial de nova and based
upon
summary
motions,
citing
the
now
unconstitutional, null and void BAJ final board
decisions as the sole deciding legal authority. This
Court denied petitioner’s writ of certiorari on the
matter. Sydnor v. LaChance, No. JFM -99-228, sup op
at 2 (D. Md. Oct. 26,1999), affd, 210 F, 3d 362 (4th Cir.
2000 (Table)), Cert, denied 531 U.S. 1014 (2000). See
Writ of Certiorari, App. H, 46a-70a, infra. Again,
petitioner was denied the fundamental due process
opportunity to challenge or defend the merit of any
disciplinary action or the illegal and alleged
discriminatory administrative proceedings leading to
the disciplinary actions. Instead, all was decided by the
now unconstitutional, null and void BAJ final board
decisions. Existing to this date, not one OPM SB or
SSA deciding official has ever appeared to give sworn
testimony or to be cross examined on any
administrative or court record as to the merit for
petitioner’s continual ALJ disciplinary actions decided
by the BAJ.
In 2010, the board members themselves made
clear in McDougall v. SSA, citation omitted, App. E,
15a-19a, infra, that a non- appointed BAJ could not
adjudicate a board ALJ appeal matter and mandated
that any such adjudication violated the APA, 5
U.S.C.7521 and 5 U.S.C 7515 E and must be vacated
and reassigned to a constitutionally appointed board
ALJ for appropriate adjudication. Based upon the
board members own mandate, petitioner again timely
motioned the board to vacate PH-0752-98-0213-1-1 and
PH-0731-98-0188-1-1 and to assign petitioner’s ALJ
board appeals to a board ALJ. Without a response
from the board, petitioner specifically wrote and sent a

8

detailed letter to the board chair person and again
made the request. Via the board clerk, the board
members refused to honor its McDougall mandate
regarding petitioner’s- request, with a ridiculous
response. See App, G, 36a-45a and App. E, 15a-16a,
infra.
On June 21,2018, this Court made clear Lucia v.
SEC, citation omitted, App. F, 31a-32a, infra, that it
was an agency constitutional appointment violation for
an agency to allow a non- constitutional appointed
agency employee to perform an agency adjudication
mandated to be performed by a constitutional
appointed agency ALJ. This Court mandated that any
such agency violation is unconstitutional, null and void
and must be vacated and then reassigned to a
constitutionally appointed agency AU for appropriate
disposition. This Court made clear that any such
grievant who timely objected to the due process denial
to the agency and in the courts is entitled to that
appropriate constitutional due process relief. Lucia,
App. F, 31a-32a, infra.
On June 22, 2018, petitioner had no choice but to
file the current action with the district court in the form
of a Mandamus and APA complaint requesting the
district court to mandate the board members to enforce
their own mandate and ultimately the mandate of this
Court to vacate PH-0752-98-0213-1-1 and PH-0731-980188-1-1 and to assign petitioner’s ALJ board appeals to
a constitutionally appointed board ALJ for appropriate
AU due process disposition. The district court and the
third circuit panelist ignored the controlling law set
forth by this Court and the vital case facts to determine
petitioner’s entitlement to appropriate constitutional
due process relief. Instead, the lower courts dismissed
petitioner’s claim for that relief, based upon the board

9
member’s motion. The lower courts disregarded the
fact that it was the board members own appropriate
AU due process relief that prompted petitioner to file
this current action. The board members admitted in
their McDougall decision that the board violated 5
U.S.C 7521, the APA and 5 U.S.C.7515 E by allowing a
BAJ to adjudicate a board ALJ appeal. The board
members then mandated that any such board
adjudication had to be vacated as null and void and the
board ALJ appeal had to be reassigned to a board ALJ
for appropriate board ALJ appeal adjudication.
McDougall. App. E, 15a-16a, 17a-19a, infra. The fact
that the lower courts allowed the board members to
exclude petitioner from its own mandate renewed and
extended the board’s constitutional appointment
violation against petitioner. The courts permitting the
renewal and extension of the board’s appointment
violation becomes more so when the courts disregarded
the controlling law and mandate of this Court to dismiss
petitioner’s timely request for his appropriate relief and
then allow the unconstitutional, null and void board
decisions to remain in effect, as the justification. In
essence, the lower courts have exempted the board
members from any constitutional appointment violation
responsibility, only as it applies to petitioner. All in
violation of petitioner’s constitutional rights to due
process and equal protection under law, as set forth in
the 5th Amendment of the United States Constitution.

10
REASONS FOR GRANTING THE PETITION
A ■writ of mandamus becomes necessary when
there are "exceptional circumstances amounting to a
judicial ‘usurpation of power”’ Cheney v. United States
Dist. Court, 542 U.S. 367, at 380 (2004). Petitioner must
establish (1) the “right to issuance of the writ is ‘clear
and indisputable/” (2) the Petitioner has “no other
adequate means to attain the relief sought, and (3) “the
writ is appropriate under the circumstances.” Id at
380-381 (citation omitted). Those are the exact
circumstances of this case which clearly demonstrate a
repeated total disregard for the due process and equal
protection clauses of the United States Constitution
directly by the respondent board members of the Merit
Systems Protection Board. The board member’s total
disregard for petitioner’s constitutional due process and
equal protection rights have been endorsed by the
lower courts’ refusal to mandate the board’s compliance
with the statutory due process intent of Congress and
now that of the United States Constitution, as ruled by
this Court. Instead, at the request of the board
members, the lower courts routinely dismiss
petitioner’s repeated and timely requests for his
entitled and appropriate due process relief.
Petitioner therefore has no other choice but to
once again ask this Court to intervene and to end the
profoundly misguided cycle of the lower courts
endorsing the board denying petitioner the same
statutory and constitutional due process rights that the
board readily affords other ALJs. Petitioner has
established a “dear and indisputable” right to relief.
Cheney, at 542 U.S. at 381 (citation omitted).
The factors for a mandamus are readily satisfied
because petitioner has “no other adequate means” to

11
“attain the relief’ petitioner is entitled and seeks to
prevent the repeated denial of petitioner’s
constitutional right to due process, Id. at 380-381
(citation omitted),
A mandamus is especially
appropriate here because it is the only way “to prevent
the lower court(s) from interfering” with the discharge
of the board’s constitutional and statutoxy duty and
responsibility to afford petitioner the same appropriate
ALJ constitutional due process and equal protection, it
readily affords other ALJs. id, at 382.
In the alternative, the Court could grant review
of petitioner’s case in one of two other ways. Either the
Court could treat this petition as a petition for a writ of
certiorari, pursuant to 28 U.S.C. 1254 (1) seeking
review of the Third Circuit’s December 4, 2020
Judgment affirming the district court’s dismissal. App.
A, la-6a, infra. The Court could then grant certiorari
on any or all of the questions presented and review the
court of appeals decision to affirm the district court’s
dismissal of petitioner’s mandamus action. Cf. Cheney,
542 U.S. at 391. Otherwise, the Court could construe
this petition as a petition for a common law writ of
certiorari, pursuant to 28 U.S.C. 1651 and seek review
of the district court’s Orders dismissing petitioner’s
mandamus request for appropriate due process relief.
App. B and C, at 7a-10a and lla-12a, infra. The Court
could then grant certiorari on any or all of the questions
presented and review the district court’s orders
directly.
Whatever course this Court takes, petitioner’s
repeated and timely requests for his constitutional due
process relief and his equal protection under the law
should not again be left dangling, without this Court’s
intervention.

12
A. Petitioner has a clear and indisputable legal
and factual right to mandated appropriate .
constitutional due process relief, which was
misguidedly ignored and routinely dismissed
by the lower courts
It is clear and indisputable that petitioner was
constitutionally appointed as a lifelong AU and
employed in that position with the SSA’s Voorhees,
New Jersey hearing office,
An AU is a
constitutionally appointed federal officer upon which
Congress has specifically set forth the statutory due
process procedures, in 5 U.S.C. 7521, 5 U.S.C. 551, et
seq (APA) and 5 U.S.C 7512 E, for an agency to remove
an AU from his appointed and employed AU position.
It is well established that the board has original
jurisdiction to adjudicate adverse actions against ALJs
under 5 U.S.C. 7521. Social Security Administration v
Long, 113 M.S.P.R. 190, par. 12 (2010); Tunik v. Merit
Systems Protection Board, 407 F.3d 1326,1332-33 (Fed.
Cir. 2005). An agency can only take action against an
AU “only for good cause established and determined
by the Merit Systems Protection Board on the record
after opportunity for hearing before the Board.” 5
U.S.C. 7521 (a); Long, 113 M.S.P.R. 190, par 12. An
AU is entitled to have his board appeal adjudicated
under the APA, 5 U.S.C. 551, et seq. See Social
Security Administration v. Dantoni, 77 M.S.P.R. 516,
521, afPd, 173 F.3d 435 (Fed. Cir. 1998) (Table); Social
Security Administration v. Goodman, 28 M.S.P.R. 120,
124 (1985). The provision for adverse action appeals
under Chapter 75, Subchapter II, see 5 U.S.C. 75117514, do not apply to adverse actions taken against
ALJs, see 5 U.S.C. 7512(E).

13
Under the APA, the taking of evidence and any
hearing in an action against a ALJ must be presided
over by the full board, one or more board members, or
an AU. See 5 U.S.C. 556(b). The board’s regulations
specifically designate that “[a]n administrative law
judge will hear an action brought by an employing
agency under this subpart against a respondent
administrative law judge.” 5 C.F.R 1201.140(a)(1); see
also Dantoni, 77 M.S.P.R. at 521. The assigned ATM
prepares the initial decision, pursuant to 5 U.S.C. 557,
that ultimately can be reviewed by the board via a
petition for review. 5 C.F.R. 1201.140(a)(2). The same
procedure applies when an ALJ brings an action
affirmatively alleging constructive removal by an
agency. 5 C.F.R 1201.142. McDougall, App. E, 15a-19a,
infra. The respondent board members are well aware
of the congressional statutory intent, coupled with its
own explicit regulations, for the appropriate due
process procedures to adjudicate an ALJ board appeal.
However, by an apparent designed error, the board
assigned petitioner’s ALJ board appeals to a BAT for
adjudication. The error becomes even more so designed, when despite petitioner’s timely requests for
his board appeals to be reassigned to a board
constitutionally appointed ALJ, those requests were
administratively blocked and ignored by the board. See
App. G, 36a-45a; and App. H, 62a-63a, 66a-70a, infra.
On June 21, 2018, this Court made clear in its
Lucia ruling that it was an agency constitutional
appointment violation of Article II, 2, cl 2 of the United
States Constitution for an agency (board) to allow a
non- constitutional appointed employee (BAJ) to
adjudicate and decide an agency matter (board ALJ
appeals) mandated to be adjudicated by a
constitutionally appointed agency (board) ALJ. Any

14
said adjudication (final board decisions PH-0752-980231-1-1 .and PH-0731-98-0188-1-1) are unconstitutional,
null and void. The matter must be reassigned to a
constitutionally appointed (board) AU for appropriate
constitutional due process relief. This Court ruled that
any previous grievant who timely objected to the
violation was entitled to that appropriate constitutional
due process relief. Lucia, App. F, 22a-24a, 31a-32a,

infra.
The board members were well aware of their
appointment violation when they reopened the BAJ
adjudication on their own motion, pursuant to 5 C.F.R.
1201.118, reviewed and decided the McDougall ALJ
board appeal in 2010. In fact, the board members
mandated and granted the very same Lucia
appropriate constitutional due process relief to ALJ
McDougall. McDougall, App. E, 15a-16a, 18a-19a, infra.
However, unlike ALJ McDougall, the board members
again refused petitioner’s timely request for the same
appropriate constitutional due process relief from his
unconstitutional null and void final board decisions PH0752-98-0231-1-1 and PH-0731-98-0188-1-1, petitioner
had been requesting all along. App. G, 36a-45a, at 42a43a, infra. The board members’ action once again
renewed and extended the board’s constitutional
appointment violation, only as it would be specifically
applied to petitioner. Petitioner has established a clear
and indisputable right to relief. Cheney, 542 U.S. at 381.

#

15
1. The lower courts’ dismissal of petitioner’s
mandamus request for relief, as untimely, is
not in accordance with the controlling law
set forth by this Court’s Lucia ruling for
timely relief as established by the case facts
Although factually disregarded by the lower
courts in error, petitioner’s mandamus complaint to the
district court specified a long uncontested history of
petitioner’s legal entitlement and timely requests for an
ALJ due process board appeal hearing before a
constitutionally appointed board ALJ.
Namely,
petitioner’s immediate challenge to his ALJ
constitutional due process denial when the board
committed its initial constitution appointment violation
by unexplainably assigning petitioner’s ALJ board
appeals to a non- constitutionally appointed BAJ for
adjudication and resolution. Petitioner timely motioned
and interlocutory appealed to the board members for
his ALJ board appeals to be reassigned and adjudicated
by a constitutionally appointed board ALJ. However,
as already noted, petitioner’s motion and appeal were
administratively blocked by the board clerk and the
BAJ. (again see App. H, 66a-70a, infra.)
The BAJ dismissed petitioner’s ALJ board
appeal
of
his
unjustified
SSA
indefinite
suspension/removal as not within board jurisdiction
(PH-0752-98-0213-1-1).
The BAJ then dismissed
petitioner’s discrimination claim and adjudicated
petitioner unsuitable for federal employment and
ordered petitioner removed and debarred from his
constitutionally appointed and employed ALJ position
(PH-0731-98-0188-1-1). All in clear violation of 5 U.S.C.
7521, corresponding board regulations, the APA, 5
U.S.C. 7515 (E) and a litany of established board ALJ

16
caselaw. Petitioner timely petitioned the board
members to review and vacate the illegal BAJ’s board
decisions and to reassign petitioner’s AU board
appeals to a board-'ALJ for appropriate AU due
process adjudication.
The board members again
committed a board appointment violation by its refusal
to reopen, review and grant petitioner’s specific
request for his ALJ appropriate due process relief, as it
readily did for AU McDougall. See again App. H, 62a63a, infra.
Petitioner timely appealed the denial of his
appropriate ALJ due process and the merit of the
BAJ’s final board decisions PH-0752-98-0213-1-1 and
PH-0731-98-0188-1-1 to the district court, as a mixed
discrimination and procedural due process denial case,
pursuant to 5 U.S.C. 7703 (b) (2) and the board’s final
decision appeal instructions. App. H, 65a, infra. This
time a timely challenge and request for petitioner’s
constitutional due process relief was made in federal
court. Sydnorv. Lachance, No. JFM-99-228, slip op. at
2 (D. Md. Oct 26, 1999). Like the board, the district
court ignored petitioner’s request to be given his
appropriate administrative board ALJ due process
relief. Without a trial de nova, the district court
granted a motion for summary judgment, based upon
- and adopting the findings of the BAJ’s final board
decision PH-0731-98-0188-1-1 and PH-0752-98-0213-1-1.
The Fourth Circuit of Appeals affirmed. 210 F. 3d. 362
(4th Cir. 2000 (Table). Petitioner timely appealed to this
Court for a writ of certiorari on the denial of
petitioner’s repeated request for an appropriate AU
board appeal hearing before constitutionally appointed
board AU, inter alias. App. H, 46a 70a, infra. This
Court denied petitioner’s writ of certiorari. 531 U S.
1014(2000).

17
In 2010, the board members issued their
McDougall ALJ board decision making it clear that an
ALJ board appeal is mandated to be heard by a
constitutionally appointed board ALJ. The board
members also made dear and mandated that any ALJ
board appeal adjudicated and decided by a BAJ
violated 5 U.S.C 7521,5 U.S. C. 551, et seq (APA) and 5
U.S.C. 7515 (E) and must be vacated as null and void
for lack of authority and jurisdiction. The board
members also mandated that a new board hearing had
to be held before a constitutionally appointed board
ALJ. See McDougall generally, App. E, infra. Based
upon the board members own decision and mandate,
petitioner timely petitioned and motioned the board for
the same mandated AU due process relief, the board
members readily afforded ALJ McDougall. This is the
same ALJ due process relief the petitioner had been
requesting all along. Without any response from the
board, on April 10, 2015, petitioner specifically sent a
detailed letter directly to the chair board member and
again timely requested the board members to vacate
PH-0752-98-0213 I 1 and PH-0731-98-0188-1-1 and to
grant petitioner an ALJ due process hearing before a
board ALJ. On behalf of the chair board member, the
board clerk responded that there was no board
regulation which permitted the board to reconsider
final board decisions PH-0752-98-0213-1-1 and PH-073198-0188-1-1. Again, see App G, 42a-43a, infra. A
contradictory board response not in accordance with
the action the board members undertook to review the
McDougall ALJ board appeal and to render its decision
and mandate. Again see App. E, 15a-16a, infra. Said
response clearly demonstrates the board’s intent to
again renew and extend its constitutional appointment

18
violation against petitioner and to exclude petitioner
from any mandated remedy.
On June 21, 2018, this Court ruled in its Lucia
ruling that an. agency commits a constitutional
appointment violation to allow a non- constitutional
appointed employee to adjudicate an agency matter,
which is mandated to be adjudicated by a
constitutionally appointed agency AU. Long before
this Court’s ruling in Lucia, the board members, by
their own ruling, made clear that an ALJ board appeal
is mandated to be adjudicated and decided by a
constitutionally appointed board ALJ. Furthermore,
that any such adjudication and decision by a non­
constitutional appointed BAJ is null and void and must
be vacated, with a new adjudication and decision by a
board ALJ. McDougall, App. E, infra. It is clear that
petitioner’s ALJ board appeals PH-0752-98-0213-1-1
and PH-0731-98-0188-1-1 were adjudicated and decided
by a non-constitutional appointed BAJ. It is also clear
that the board, despite petitioner’s repeated timely
demands for his appropriate board AU due process
adjudication, has repeatedly refused to afford petitioner
that appropriate AU due process relief.
This Court in its Lucia ruling has deemed the
board’s repeated denial of petitioner’s appropriate
constitutional ALJ due process relief from final board
decisions PH-0752-98-0213-1-1 and PH-0731-98-0188-1-1
as a board constitutional appointment violation. This
Court has also made clear in its Lucia ruling that a
grievant of the board’s constitutional appointment
violation, who timely makes claim for his denied
appropriate constitutional due process relief, is entitled
to a new and appropriate board AU adjudication and
decision, as a matter of law. App. F, infra. Petitioner’s
timely requests and claim for his board AU due

19
process hearing has been the case over and over again
here, warranting petitioner’s mandamus request to the
district court for his appropriate constitutional due
process relief.
For over two decades, petitioner has made
timely claims for his appropriate ALJ due process
relief, not only to the board, but in the unsuccessful
court appeals of the board’s unconstitutional, null and
void board decisions to the district court, the fourth
circuit, and even in a writ for certiorari to this Court.
All petitioner’s timely claims for his appropriate ALJ
constitutional due process relief were denied. Here
again, petitioner timely requests a mandamus for the
same appropriate due process relief from the district
court, third circuit, and now again from this Court.
Appropriate due process which the board members
themselves mandate petitioner is entitled. More so>
appropriate constitutional due process relief which this
Court mandated petitioner is entitled, in accordance
with the controlling law for making a timely claim, as
clearly established by the facts set forth supra. All
which the district court and the third circuit panelist
misguidedly ignored in dismissing petitioner’s
mandamus request.

20
2. The lower courts errored to rule
petitioner’s unsuccessful appeals of a board
decision, ruled unconstitutional, null and
void by this Court, can still be used to deny
petitioner’s appropriate constitutional due
process relief, denied by that same board
decision
The board members successfully motioned and
misguided the district court to dismiss petitioner’s
mandamus claim for his appropriate ALJ constitutional
due process relief because petitioner had already
unsuccessfully appealed those board decisions. Those
same board decisions to this date, have continued to
rule petitioner unsuitable, removed and debarred
petitioner from his lifelong constitutionally appointed
and employed SSA AU position. It did not matter to
the board members, and was ignored by the district
court and the third circuit panelist that these are the
same unsuccessfully appealed board decisions which the
board members themselves subsequently ruled as in
violation of 5 U.S.C. 7521, the APA, and 5 U.S.C 7515
(E), and mandated by the board members to be without
board authority and jurisdiction and to be vacated as
null and void. It did not matter to the board members,
district court, or the third circuit panelist that these are
the same unsuccessfully appealed board decisions the
board members themselves mandated to be
unequivocally reassigned to a constitutionally
appointed board AU for appropriate AU board
resolution. It did not matter to the board members,
district court or the third circuit panelist that this
Court had deemed board decisions, such as PH-0752-980213-1-1 and PH-0731-98-0188-1-1 as a board
constitutional appointment violation and mandated that

21
such be vacated as unconstitutional, null and void. As
such, a mandated remedy would be a new appropriate
constitutional hearing before a constitutionally
appointed ALJ. Lucia, App. F, 31a-32a, infra.
The board members, district court and the third
circuit panelist, in their motions, orders and opinion,
make a point to lambast petitioner for his repeated,
unsuccessful,
but timely requests for his
constitutionally entitled ALJ due process remedy.
Nonetheless, petitioner’s repeated timely requests for
that entitled ALJ constitutional due process relief, in
fact, establishes petitioners right to remedy from the
board’s unconstitutional appointment violations, based
upon Lucia. The district court and third circuit are in
error to grant the board members’ motion to dismiss
petitioner’s mandamus request based upon any
unsuccessful appeal of an unconstitutional, null, void
and now vacated board decision, resulting from a board
constitutional appointment violation. There can be no
res judicata or collateral estoppel bar stemming from
the litigation of an unconstitutional, null and void board
decision that must be vacated and otherwise does not
exist.
3. The district court errored to rely upon an
unconstitutional, null and void board
decision ruling to disqualify and dismiss
petitioner’s mandamus request for his
appropriate constitutional due process relief,
as set forth by this Court
The district court in its order, makes the same
error the prior district court made to rely upon the
faulty procedure and the merit of an unconstitutional,
null and void board decision to deny petitioner his

;

22

entitled and appropriate constitutional and statutory
ALJ due process relief. Based upon this Court’s
controlling ruling in Lucia, final board decisions PH0731-98-0188-1-1 and PH-0752-98-0213-1-1 are both null
and void and must be vacated because they were
derived from a board constitutional appointment
violation, making them unconstitutional. Also, the
board members’ own mandate set forth in their
McDougall decision, make final board decisions PH0731-98-0188-1-1 and PH-0752-98-0213-1-1 null, void and
must be vacated because they were derived from a BAJ
without board jurisdiction and authority. Either way, it
would be error for the district court to have dismissed
petitioner’s mandamus action based upon any reliance
on factual findings or legal conclusions derived from
final board decisions PH-0731-98-0188-1-1 or PH-075298-0213-1-1.
Generally, in both civil and criminal cases,
unconstitutional laws and rules are void ab initio, or
from inception, as if they never existed.
See
Montgomery v. Louisiana, _U.S._, 136 S. Ct. 718,193 L.
Ed. 2d 599 (2016). Seemingly the same would apply to
an unconstitutional board decision, without jurisdiction
or authority. As such, and as specifically mandated by
this Court in Lucia and the board members themselves
in McDougall, the entire unconstitutional, null, and
void board proceeding in PH-0752-98-0213-1-1 and PH0731-98-0188-1-1, to include any legal and factual
conclusions, are null and void and must be vacated as a
matter of law.
In the district court’s December 3, 2019 order,
the district court cites petitioner as being determined
unsuitable and uses this unconstitutional, null and void
board legal and factual conclusion, set forth in PH-073198-0188-1-1, to exclude petitioner from any ALJ due

23
process procedural protection. The district court then
proceeds to exclude petitioner from the Lucia timely
coverage based upon that legal and factual conclusion,
solely
and
ultimately
determined
by the
unconstitutional, null and void board decision. It is
legal and factual error for the district court to have
dismiss petitioner’s mandamus action based upon any
information from a board decision lacking jurisdiction
or authority and derived from a board constitutional
appointment violation.
Likewise, it would also be legal and factual error
for the district court to have relied upon any other prior
court decision which in fact relied upon that same
unconstitutional, null and void board decision to dismiss
petitioner’s prior court actions on his appeal of that
unconstitutional, null and void board decision. This
especially becomes error, when none of those prior
court actions afforded petitioner a de nova hearing on
the merit of any matter appealed from that flawed
board decision. Instead, those prior courts relied solely
upon what had already been decided by that
unconstitutional, null and void board decision to
summarily dismiss petitioner’s appeals.
B.
Petitioner has no other adequate means to
attain his appropriate constitutional due process
relief, improperly denied by the board and
misguidedly dismissed by the lower courts, based
upon that improper denial
Petitioner has “no other adequate means” to
“attain the relief’. Cheney, supra at 380-381.
Appropriate constitutional and statutory due process
relief becomes unavailable when the respondent lower
courts look the other direction from the board’s

24
unconstitutional actions. Notedly, when the lower
courts refuse to comment on the board members .
repeated wrongful actions to deny petitioner the same
constitutional and statutory due process relief, the
board members readily afford other AUs, unlike
petitioner. See In re Spielman, 1 M.S.P.R 53, 1979
M.S.P.B. Lexis 115, 1 M.S.P.B. 50 (M.SP.B. 1979),
Dantoni, supra and McDougall, infra.. This becomes
apparent when the respondent lower courts berate
petitioner in their orders and opinion for repeatedly
requesting his denied appropriate constitutional and
statutory due process relief, petitioner is entitled to as
a matter of law. Likewise, the respondent lower courts
fail to acknowledge or even mention the fact that the
respondent board members admit to violating 5 U.S.C
7521, the APA, 5 U.S.C. 7515 E, by allowing a BAJ to
adjudicate petitioner’s board ALJ appeal, id. As this
board violation applies to petitioner, this is a board
constitution appointment violation, pursuant to this
Court’s ruling in Lucia. All which renders final board
decisions PH-0752-98-0213-1-1 and PH-0731-98-0188-1-1
unconstitutional, null and void.
For over two decades, petitioner has timely and
repeatedly requested the board, district and circuit
courts and even this Court for petitioner’s right to a
fundamental AU board appeal hearing before a board
ALJ. An appropriate due process remedy petitioner is
clearly and undisputedly entitled, pursuant to 5 U.S.C.
7521, APA, and 5 U.S.C.
7515 (E). Repeatedly, the board has unexplainably
ignored and the appeal courts have skirted the issue
and routinely dismissed petitioner’s request's for his
due process relief, in reliance upon an Unconstitutional,
null and void board decisions. App. G; and H, infra.
The very same scenario was the case when petitioner

25
was forced to board appeal and to litigate side issues
radiating directly from the unconstitutional, null and
void board decisions. Again, the petitioner specifically
attacked the validity of the unconstitutional, null and
void board decisions directly causing the issues being
appealed and litigated, all resulting from the board’s
denial of petitioner’s ALJ due process relief. Again, the
board and those lower courts ignored and skirted
petitioner’s claim for his constitutional and statutory
due process relief and relied upon the unconstitutional,
null and void board decisions to dismiss petitioner’s
claims. See Sydnor v. OPM, WL 2029800 (E.D. Pa. July
11, 2007), afPd, 356 F. App’x 175 (3d Cir. 2009); Sydnor
v. M.S.P.B. (AU Board Appeal No. CB-7521-10-0003T-l), 466 F. App’x 907 (Fed. Cir. 2012).
In June, 2018, petitioner again timely requested
the district court in this current action, to mandate the
board members to comply with their own mandate and
the APA to vacate board decisions PH-0752-98-0213-1-1
and PH-0731-98-0188-1-1 and to afford petitioner his
entitled ALJ board appeal hearing before a board ALJ.
A request which the board members have repeatedly
denied petitioner and now again. App. G, infra. With
knowledge of this Court’s controlling ruling in Lucia,
and the facts supporting petitioner’s timely claim for
his appropriate constitutional due process relief, the
board members, district and circuit courts again either
ignored, defied or circumvented the constitution,
federal statutes and the ruling of this Court. The
respondent board members and the lower courts again
relied upon the unconstitutional, null and void board
decisions to deny and dismiss petitioner’s appropriate
constitutional claim for due process relief. App. A - D,
infra. Once more, the board and the lower courts have

26

resorted to the vicious cycle of using the board’s
wrongdoing to justify the board’s wrongdoing.
Petitioner has no other option but to again
return to this Court
and to seek this Court’s
intervention, this time in the form of a writ of
mandamus for the board members and the lower courts
to comply with the United States Constitution, federal
due process statutes and the ruling of this Court in
Lucia. Petitioner has “no other adequate means to
attain” his appropriate constitutional due process relief.
Cheney, supra, at 381 (citation omitted), citing Kerr v.
United States Dist. Court, Northern Dist. of Cal. 426
U.S. 394,403 (1976).
C. Mandamus relief is appropriate under the
circumstances of this contradicted case
As previously established, there is a history in
this case of petitioner’s appeal to the lower courts and
the lower court’s refusal to
mandate the board to
comply with its duties and responsibilities set forth in 5
U.S.C. 7521, APA and 5 U.S.C. 7515 (E) by allowing
petitioner’s ALJ board appeals PH-0752-98-0213-1-1
and PH-0731-98-0188-I-l'to remain as wrongful board
final decisions. Even after this Court’s ruling in Lucia,
establishing ALJ board appeals PH-0752-98-0213-1-1
and PH-0731-98-0188-1-1 as unconstitutional, null and
void, the lower courts still repeatedly defend the
board’s wrongful actions toward petitioner by either
ignoring the established controlling law or to
ridiculously trying to justify the board’s action. To this
date, not one of the lower courts have ever nor will ever
determine the continuous board actions toward
petitioner violate Article II, 2, cl. 2, and the 5th
Amendment of the United States Constitution, 5 U.S.C.

27
7521, the APA, 5 U.S.C 7512 (E), 5 C.F.R. 1201.140 and
a litany of established board caselaw. Instead, these
courts would rather lambaste and attempt to humiliate
petitioner for his repeated timely requests for his
denied constitutional and statutory due process relief,
to which he is entitled and will always be entitled.
The lower courts have allowed the board to
carved out its own exception for the petitioner from the
board’s own statutory mandate, as well as an exception
from this Court’s constitutional appointment mandate,
to continue its denial of petitioner’s appropriate due
process remedy. In essence, the lower courts have
licensed the board to continue to violate its statutory
AU due process duties and responsibilities, as well as
the 5th Amendment and now the appointment clause of
the United States Constitution, as applied to petitioner.
As this case now stands once more before this Court, it
becomes clear that a mandamus writ for petitioner’s
appropriate constitutional due process relief to both
respondent board members and the lower courts is
“appropriate under the circumstances of this case.”
Cheney, swpra at 380.
A mandamus is traditionally used “to confine (in
this case, a board’s AU appeal) to a lawful exercise of
its prescribed jurisdiction. Granting a mandamus to
enforce the board’s ALJ appeal due process to comply
with Article II, 2, cl. 2 of the United States
Constitution, 5 U.S.C. 7521, the APA, and 5 U.S.C. 7512
E would do just that. Cheney, ibid, citing Roche v.
Evaporated Milk Assoc., 319 U.S. 21, 26 (1943). A
mandamus is particularly appropriate here where you
have the lower courts perpetuating the board’s
violation of the United States Constitution and federal
due process statutes by not interceding to mandate
the board’s compliance, ibid. The board’s actions

28

constitute “exceptional circumstances” amounting to a
judicial “usurpation of power” Will v. United States, 389
U.S. 90, 95 (1967) and a “clear abuse of discretion”
Bankers Life & Casualty Co. v. Holland, 346 U.S. 376,
383 (1953), either which “will justify the invocation of
this extraordinary remedy”. Will, 389 U.S. at 95.
CONCLUSION
For the foregoing reasons, the court should issue
a writ of mandamus directing the district court and the
board to afford petitioner his appropriate constitutional
due process relief, as set forth in this Court’s Lucia
ruling. Alternatively, the Court should construe this
petition as either (1) a petition for s writ of certiorari
seeking review of the court of appeals’ December 14,
2020 decision to affirm the district court’s dismissal or
(2) a petition for a common law writ of certiorari
seeking review of the district court’s orders dismissing
petitioner’s mandamus for appropriate constitutional
due process relief, and grant certiorari on the questions
presented.

Respectfully Submitted,
Reginald Sydnor
731 Buck Lane
Haverford, PA 19041
(610) 649-0327
Pro Se Petitioner

